           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


   INDIVIDUAL REPRESENTATIVE PAYEES
   SERVING MULTIPLE BENEFICIARIES

      July 2009    A-13-08-28089




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                     Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                               SOCIAL SECURITY
MEMORANDUM

Date:      July 31, 2009                                                                       Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Individual Representative Payees Serving Multiple Beneficiaries (A-13-08-28089)


           OBJECTIVE
           Our objectives were to determine whether selected individual payees (1) operated as
           organizations or group homes, (2) met the needs of the beneficiaries being served,
           and/or (3) misused Social Security benefits.

           BACKGROUND

           Some individuals cannot manage or direct the management of their finances because
           of their youth or mental and/or physical impairments. Congress granted the Social
           Security Administration (SSA) the authority to appoint representative payees to receive
           and manage these beneficiaries’ benefit payments. 1 A representative payee may be an
           individual or an organization. SSA selects representative payees for Old-Age, Survivors
           and Disability Insurance (OASDI) program 2 and/or Supplemental Security Income (SSI)
                     3
           program beneficiaries when representative payments would serve the individual’s
                      4
           interests.

           The Social Security Protection Act of 2004, Public Law 108-203, mandates that SSA
           conduct periodic reviews for the following types of representative payees: individuals
           who serve 15 or more beneficiaries; certified community-based nonprofit social service
           agencies; or other agencies that serve as representative payee for 50 or more



           1
               Social Security Act §§ 205(j)(1) and 1631(a)(2); 42 U.S.C. §§ 405(j)(1) and 1383(a)(2).
           2
            The OASDI program provides benefits to qualified retired and disabled workers and their dependents as
           well as to survivors of insured workers. Social Security Act § 201 et seq., 42 U.S.C. § 401 et seq.
           3
            The SSI program provides payments to individuals who have limited income and resources and who are
           either age 65 or older, blind, or disabled. 20 C.F.R. § 416.110.
           4
             The term “beneficiary” is used generically in this report to refer to both OASDI beneficiaries and SSI
           recipients.
Page 2 - The Commissioner


individuals. 5 Under its Expanded Monitoring Program, SSA conducts four types of
reviews. The reviews are: (1) site reviews, (2) “quick response check” site reviews,
(3) educational visits, and (4) random reviews. Random reviews and quick response
check site reviews may be completed for individuals who serve as payees for 14 or
                     6
fewer beneficiaries.

SSA’s policy for scheduling random reviews states,

       In FY [Fiscal Year] 2005 and FY 2006, SSA reviewed a random sample of 15% of
       volume and FFS [fee for service] payees that were not selected for a site review in the
       current year. Beginning FY 2007, organizational representative payees serving less
       than 50 beneficiaries and individual payees serving less than 15 beneficiaries who
       should be scheduled for a random review are listed on the Philadelphia RO’s [Regional
       Office] Representative Payee Monitoring Application. To manage the size of this
       workload, the total number of payees selected approximates the number of volume
       and FFS payees that were due for a random review in FY 2006. 7

In July 2007, the National Research Council of the National Academies (National
Academies) issued a report, Improving the Social Security Representative Payee
Program: Serving Beneficiaries and Minimizing Misuse. In its report, the National
Academies discussed the results of its national survey including payee performance,
prevention and detection of payee misuse, and SSA’s Representative Payment
Program policies and practices. The study was restricted to individual payees serving
fewer than 15 beneficiaries and non-fee-for-service organizational payees serving fewer
than 50 beneficiaries.

The National Academies’ study of payees found several cases where individuals were
payees for numerous beneficiaries while also affiliated with organizations that served
the beneficiaries, possibly as fee-for-service organizations. It was reported in many of
these cases that the representative payee was not only the disburser of Social Security
benefits but also the provider of services, including shelter and food. Further, it was
reported that when a representative payee is a creditor of a beneficiary, either as a
landlord or as a provider of board and care, it is unclear whose interests are being
served.

The study concluded that SSA’s current designation of “individual payee” is too broad,
encompassing payees who served a single or a few beneficiaries with those who
operated group homes for up to 14 beneficiaries. The National Academies’ report also
indicated that individual payees who are owners or administrators of group homes have



5
 Pub. L. No. 108-203 § 102. The mandatory on-site review provisions were incorporated into sections
205(j)(6) and 1631(a)(2)(G) of the Social Security Act, 42 U.S.C. §§ 405(j)(6) and 1383(a)(2)(G).
6
    SSA, Program Operations Manual System (POMS), General 00605.400 D.2. and D.3.
7
    SSA, POMS, GN 00605.405 C.
Page 3 - The Commissioner


an inherent conflict of interest. It was also concluded that payees of this type require
special monitoring. See Appendix B for the report’s recommendations concerning
these issues and the Agency’s responses.

We identified 910 individual representative payees having certain characteristics who
served fewer than 15 beneficiaries. Of the 910 payees identified, 16 payees were
reviewed. See Appendix D for our Sampling Methodology.
                                 8
Specifically, we reviewed payees who (1) served between 4 and 14 beneficiaries;
(2) handled payments for at least 3 non-relatives; and (3) managed a minimum of
$800 in monthly benefit payments. In addition, payees selected for review were:

       •   age 50 and older with wages less than $9,973 in 2005; 9
       •   any age with wages greater than $9,973 in 2005; or
       •   convicted felons or those who served time in prison or had previously misused
           benefits and who were also (a) over age 50 with wages less than $9,973 in 2005
           or (b) any age with wages greater than $9,973 in 2005.

Some of the characteristics we used to select payees for review were identified as
indicators of possible misuse in the National Academies’ study. 10 See Table 1 for the
16 individual representative payees selected for review.




8
    At the time of selection for inclusion in our review, the individuals met the characteristics identified.
9
  The $9,973 dollar amount represents the poverty threshold for 2005 for a one-individual household as
reported by the Department of Health and Human Services. Also, at the time of payee selection, Tax Year
2005 earnings was the most recent year that all earnings information was posted to SSA’s Master
Earnings File. Individual payees with no obvious means of supporting themselves may have a higher risk
of misuse of benefits.
10
  Characteristics identified in the report of the National Academies as indicators of possible misuse
included payee is a nonrelative; payee serves four or more beneficiaries; payee is a convicted felon; and
payee served time in prison.
Page 4 - The Commissioner


                        Table 1: Individual Representative Payees 11
                                          Payees       Beneficiaries
                       SSA Region        Reviewed     Served in 2007
                      Boston                 2               27
                      Philadelphia           4               27
                      Atlanta                3               39
                      Chicago                2               27
                      Dallas                 1               14
                      San Francisco          4               37
                           Total             16              171

Our review examined benefit payments received by the payees and the beneficiaries
served for the period January 1 to December 31, 2007.

RESULTS OF REVIEW
Of the 16 individual representative payees reviewed, we found 3 payees operated
group homes or assisted living facilities, and 7 were guardians. Of the seven
guardians, three had business licenses for the services provided to the beneficiaries.
Based on conditions found, we believed a separate review was warranted for one
payee. 12 Generally, based on our review, we found the remaining 15 individual
representative payees met the needs of the beneficiaries being served and did not
misuse Social Security benefits. However, we did find two payees charging
unauthorized fees. See Table 2 for details.




11
   A separate review of one payee and the beneficiaries served was subsequently initiated. See Appendix
C for additional information on our Scope and Methodology, and Appendix D for our Sampling
Methodology.
12
   Organizational Representative Payee Serving as an Individual Representative Payee in Philadelphia,
Pennsylvania (A-03-09-29094).
Page 5 - The Commissioner


                                                Table 2
                                               Payee Operated       Number of          Payee
                  Payee                        Group Home or      Beneficiaries’      Charged
         (by Region and Location)              Assisted Living   Clothing/Shelter   Unauthorized
                                                   Facility       Needs Not Met        Fees
1-Boston (Waban, MA)
2-Boston (Nashua, NH)
3-Philadelphia (Baltimore, MD)                                          1                 X
4-Philadelphia (Glenside, PA)                        X
5-Philadelphia (Wilmington, DE)
6-Philadelphia (Philadelphia, PA)                    X            Separate Review Conducted
7-Altanta (Douglasville, GA)
8-Atlanta (Port Charlotte, FL)                                          1                 X
9-Atlanta (Venice, FL)
                         13
10-Chicago (Detroit, MI)
11-Chicago (Mullet Lake, MI)
12-Dallas (Fort Worth, TX)                                              1
13-San Francisco (Berkeley, CA)
14-San Francisco (Roseville, CA)
15-San Francisco (San Francisco, CA)
16-San Francisco (San Bernardino, CA)13              X
TOTAL                                                3                  3                 2

Some Payees Operated Group Homes and Assisted Living Facilities

Of the 16 individual representative payees reviewed, we found 2 payees operated
group homes and 1 payee operated an assisted living facility. Several of the
beneficiaries served by these payees lived in the facilities. These payees were
creditors of the beneficiaries they served, either as a landlord or as a provider of board
and care. Nothing came to our attention that would lead us to believe the remaining
13 payees operated group homes or assisted living facilities.

Of the 13 representative payees, 7 were court-appointed guardians. 14 Three of these
seven payees had business licenses as guardians. SSA policy lists an unrelated
guardian as a type of individual representative payee. 15 In addition, we found one
payee had a business license for a nonprofit pantry.




13
     Individual payee was a convicted felon.
14
  SSA, POMS, GN 00602.040 A. states “Conservator and conservatorship are the same as guardian and
guardianship.”
15
     SSA, POMS, GN 00501.013 B.1.
Page 6 - The Commissioner


Separate Review of Payee Was Warranted

For one individual representative payee in the Philadelphia Region, we found the payee
also served as an organizational representative payee for two group homes. During our
limited review, we found conditions that led us to believe a separate, detailed review of
the payee’s operations was warranted. We initiated a review of the representative
payee’s activities for the period January 1, 2007 to September 30, 2008.

Most Beneficiaries Had Their Needs Met

For the remaining 15 individual representative payees, we determined whether the
                                      16
needs of 125 beneficiaries were met. Based on personal observations and interviews
of the beneficiaries, we concluded the food, clothing, and shelter needs of
122 beneficiaries were being met at the time of our review. For these individuals,
nothing came to our attention that would lead us to believe the representative payees
did not use the Social Security benefits received for the beneficiaries’ needs. However,
some beneficiaries served by the same payee expressed concerns about their living
conditions and their payee. Those concerns included problems at the nursing facilities
where the beneficiaries lived; telephone calls from vendors about unpaid bills; inability
to make contact with their payees; and the lack of personal spending allowances. We
reported the concerns expressed by the beneficiaries to SSA staff.

For the remaining three beneficiaries, we concluded the food needs were being met at
the time of our review. However, we questioned whether the payees met the shelter
and/or clothing needs of these beneficiaries.

•    We questioned whether the shelter needs of two beneficiaries were met. At payee
     locations in the Atlanta and Philadelphia Regions, we observed living conditions that
     were unhealthy. For the beneficiary in the Atlanta Region, we observed unclean
     and unsanitary conditions. During our interview with another beneficiary in the
     Philadelphia Region, we observed the home was in very poor condition, the rooms
     were dirty, trash was on the floors throughout the home, and the beneficiary had to
     lock his bedroom door to prevent theft of personal items. In both instances, the
     beneficiaries stated they had not had recent contact with their representative
     payees. We shared this information with local SSA field office staff.

•    For one beneficiary, we questioned whether her clothing needs were being met.
     During the interview of a beneficiary in the Dallas Region, the beneficiary reported
     wearing donated clothing. We found the representative payee received $1,649 per
     month in Social Security retirement benefits on behalf of this beneficiary. At the
     time of our visit, the representative payee maintained a checking account for the
     beneficiary that contained more than $4,500 in conserved Social Security funds.
     Further, the representative payee managed a separate savings account for this

16
  Of the 171 beneficiaries served by the 16 payees during the period January 1 to December 31, 2007,
we did not assess whether the needs of 46 beneficiaries were met. See Appendix C for our detailed
Scope and Methodology, and Appendix D for our Sampling Methodology.
Page 7 - The Commissioner


      beneficiary that contained more than $32,000. This beneficiary also expressed
      concerns about the nursing facility where she lived; an inability to make contact with
      her payee; and the lack of a personal spending allowance. We reported this
      situation to SSA regional office staff.

Representative Payees Charged Unauthorized Fees

SSA policy states a representative payee is required to use the benefits only for the use
                               17
and benefit of the beneficiary. Misuse occurs when the payee uses the benefits for
any other purpose. 18 Agency policy indicates compensating an individual or entity from
benefits for serving as a representative payee; that is, compensating a payee for his/her
time and effort or administrative expenses, is not allowed. 19 The Social Security Act
provides an exception by stating, “…a qualified organization may collect from an
individual a monthly fee for expenses (including overhead) incurred by such
organization in providing services performed as such individual's representative
payee….” 20 Of the 15 individual representative payees reviewed, we found 2 payees
charged 9 beneficiaries’ fees for which the payees were not authorized by SSA.

      •    One individual representative payee was a court-appointed guardian for all but
           one of the beneficiaries she served. For the one beneficiary for whom the payee
           was not appointed as guardian, the payee charged $65 per hour for services
           provided to the beneficiary. We estimate the payee inappropriately charged the
           beneficiary about $2,070 in fees during the period January 1 to
           December 31, 2007.

      •    In the Philadelphia Region, an individual representative payee served eight
           beneficiaries. Each beneficiary was charged a fee of $29 per month to manage
           their benefit payments. The payee was not a fee-for-service or court-appointed
           guardian for the beneficiaries. For our audit period, we estimate the payee
           inappropriately charged beneficiaries about $2,780 in fees.

Information for both payees was reported to the appropriate SSA field offices.

Payees Did Not Always Comply with SSA’s Policies and Procedures

During our review of the 15 individual representative payees, we found payees did not
always comply with SSA’s policies and procedures. Specifically, we found
(1) two payees acted as conduit payees for several beneficiaries; (2) one payee failed
to report significant events to SSA; (3) one payee had not established a separate bank

17
     SSA, POMS, GN 00604.001 A.
18
     SSA, POMS, GN 00604.001 C.3 for SSA’s definition of misuse of benefits.
19
     SSA, POMS, GN 00602.110 A.
20
     Social Security Act §§ 205(j)(4)(A)(i) and 1631(a)(2)(D)(i) and Id.
Page 8 - The Commissioner


account for beneficiaries’ funds; and (4) two payees did not maintain receipts or other
documentation to account for how the beneficiaries’ monthly benefit payments were
spent during our audit period. See Table 3 for information concerning payees who did
not comply with SSA’s policies and procedures.

                Table 3. Three Payees’ Noncompliance with SSA’s Policies and Procedures
                                                  Did not Report Bank Account
                    Payee                Conduit                                    Insufficient
                                                    Significant      not Titled
           (by Region and Location)       Payee                                    Documentation
                                                      Events          Properly
 1-Boston (Waban, MA)
 2-Boston (Nashua, NH)
 3-Philadelphia (Baltimore, MD)                X           X            X               X
 4-Philadelphia (Glenside, PA)
 5-Philadelphia (Wilmington, DE)               X
 6-Altanta (Douglasville, GA)
 7-Atlanta (Port Charlotte, FL)
 8-Atlanta (Venice, FL)
 9-Chicago (Detroit, MI)21                                                              X
 10-Chicago (Mullet Lake, MI)
 11-Dallas (Fort Worth, TX)
 12-San Francisco (Berkeley, CA)
 13-San Francisco (Roseville, CA)
 14-San Francisco (San Francisco, CA)
 15-San Francisco (San Bernardino, CA)21
     TOTAL                                     2           1            1               2

Conduit Payees

SSA policy indicates that a conduit payee is a payee who does not exercise control of
the funds and cannot accurately account for how benefits were used. 22 Agency policy
further states a conduit payee situation may indicate lack of payee interest, or it may
suggest the beneficiary is capable of managing his or her own benefits. 23 When a
conduit payee situation is identified, SSA policy indicates that appointing a successor
payee will be considered if funds are being turned over to a third party, and direct
payment will be considered if funds are being turned over to the beneficiary. 24 We
found two payees 25 functioned as conduit payees by providing the beneficiaries the
entire amount or part of the monthly benefit payment without instruction. These payees
managed about $98,600 annually in benefit payments for 12 beneficiaries.

21
     Individual payee was a convicted felon.
22
     SSA, POMS, GN 00605.067 D.1.
23
     Id.
24
     Id.
25
     These payees were located in SSA’s Philadelphia Region.
Page 9 - The Commissioner


After paying the beneficiaries’ rent, we found one representative payee turned over all
or a portion of the remaining funds of the monthly benefit payments to three
beneficiaries. Another payee allowed a beneficiary to manage the entire monthly
benefit payment for herself and her two children. The payee provided the beneficiary
no direction or instruction on how to spend the funds.

We discussed these payees with SSA staff who indicated additional action would be
taken regarding these payees. We believe the Agency should determine whether the
beneficiaries continue to require a representative payee to manage their respective
benefit payments.

Payee Failed to Report Significant Events to SSA

One of a representative payee’s primary responsibilities is to notify SSA of any event
that would affect the amount of benefits the beneficiary receives or the beneficiary’s
                          26
right to receive benefits. We determined one representative payee did not timely
notify SSA of events that affected beneficiary eligibility or benefit amount. As a result,
about $620 in improper payments may have occurred. The representative payee, in
the Philadelphia Region, did not inform SSA that the beneficiary was incarcerated in
August 2008. We attempted to contact the beneficiary for an interview during this
period. Once the beneficiary was released, we conducted our interview in September
2008. We provided this information to the appropriate SSA field office.

Bank Account Not Properly Titled and Non-Beneficiaries’ Funds Included In Account

Social Security regulations indicate that any benefits that are not needed for the
beneficiaries’ current or reasonably foreseeable needs must be conserved or
           27
invested. All investments must show that the representative payee holds the benefits
in trust for the beneficiary. 28 SSA policy indicates that field offices may approve
representative payees to establish collective checking and savings accounts to hold
                                              29
monies belonging to several beneficiaries. However, to protect the beneficiaries’
funds, the account title must show that (1) the payee holds the account in a fiduciary
capacity on behalf of the beneficiaries; (2) the beneficiaries must own the account
without having access to it; (3) the payee cannot have a personal interest in the
account; and (4) any interest earned belongs to the beneficiaries and must be credited
to each beneficiary on a prorated basis. 30

26
  SSA POMS GN 00502.113 C.1. Interviewing the Payee Applicant and SI 02301.005 A and B.2–SSI
Posteligibility - Recipient Reporting.
27
     20 C.F.R. §§ 404.2045, 416.645.
28
     Id.
29
     SSA, POMS, GN 00603.020 B.
30
     Id.
Page 10 - The Commissioner


A representative payee cannot mix the beneficiary’s funds with the payee’s funds. 31 In
addition, SSA policy states, “The account must be separate from the institution’s,
                                                   32
agency’s or individual payee’s operating account.” Without identifying the
beneficiaries’ ownership interest, funds belonging to Social Security beneficiaries
contained in an account are at risk.

We found that one representative payee in the Philadelphia Region had not properly
titled the beneficiaries’ bank account. A separate bank account for the beneficiaries in
the payee’s care was not established. Instead, beneficiary funds were deposited into
the payee’s account. As a result, the account was not properly titled to show the funds
belonged to the beneficiaries. A properly titled account is important because if the
representative payee has financial problems and/or files for bankruptcy, beneficiary
funds may not be protected.

In addition, funds belonging to the payee were deposited into this account. The payee
did not follow SSA’s procedures to keep Social Security beneficiaries’ funds separate
from other monies. Instead, the individual representative payee deposited benefit
payments and maintained personal funds in the same bank account. This account was
used to pay beneficiaries’ and the payee’s personal expenses. We shared this
information with the local field office staff.

Insufficient Supporting Documentation

Federal regulations 33 require that representative payees account for the use of benefits,
keep records of the funds received and spent, and make those records available upon
request. For our review, we examined beneficiaries’ files as maintained by the
representative payees. Two representative payees did not maintain receipts or other
documentation to account for how the beneficiaries’ monthly benefit payments were
spent during our audit period. We could not locate sufficient supporting documentation
for some of the beneficiaries’ expenses. As a result, SSA does not have reasonable
assurance that the benefit payments were used to meet the beneficiaries’ needs.

We found that one individual representative payee in the Chicago Region had
documentation for beneficiaries’ rent, but not for other expenses such as cable,
telephone, medical premiums, and church offerings. An individual representative payee
in the Philadelphia Region did not have documentation for beneficiaries’ housing,
utilities, and food expenses. The payee stated these costs were included in the rental
fee charged to the beneficiaries. However, the payee did not have documentation to
indicate these costs were included in the rental fee. We shared this information with
the local SSA field office staff.



31
     SSA Publication No. 05-10076, Social Security: A Guide for Representative Payees, January 2009.
32
     POMS, GN, 00603.020.
33
     20. C.F.R. §§ 404.2065 and 416.665.
Page 11 - The Commissioner


CONCLUSIONS AND RECOMMENDATIONS
Generally, the individual representative payees we reviewed were meeting the needs of
the beneficiaries being served. Based on personal observations and interviews, we
determined the food, clothing, and shelter needs for 122 beneficiaries were being met.
However, we questioned whether the shelter or clothing needs of three beneficiaries
were met. In addition, we identified two were payees charging unauthorized fees.
Finally, we identified three payees who were not complying with SSA’s policies and
procedures.

Our review focused on individual representative payees with certain characteristics.
We reviewed payees who served between 4 and 14 beneficiaries; handled payments
for at least 3 non-relatives; and managed a minimum of $800 in monthly benefit
payments. In addition, payees selected for review also had certain characteristics
concerning age, wages, incarceration, or benefit payment misuse. Our review, with the
exception of one payee for which we initiated a separate review, did not identify
significant problems with the payees. Based on our results, we do not believe payees
with only these characteristics should be targeted for special monitoring by SSA.
However, when a payee selected for examination under the Agency’s random review
efforts is determined to be a creditor of the beneficiary, we believe the Agency should
take extra care in reviewing this payee’s performance.

We recommend SSA:

1. Include steps to determine whether payees are operating group homes when
   individual representative payees are selected for review. If the payees are
   operating group homes, take additional steps to verify the needs of the beneficiaries
   are met and the expenses are reasonable and supported.

2. Review the concerns reported to Agency staff regarding the specific payees we
   reviewed and take appropriate action.

AGENCY COMMENTS

SSA agreed with our recommendations. The Agency’s comments are included in
Appendix E.




                                                  Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Excerpt from the National Research Council of the National Academies
             Report, Improving the Social Security Representative Payee Program:
             Serving Beneficiaries and Minimizing Misuse and the Social Security
             Administration’s Responses

APPENDIX C – Scope and Methodology

APPENDIX D – Sampling Methodology

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                                   Appendix A

Acronyms
C.F.R.               Code of Federal Regulations
National Academies   National Research Council of the National Academies
OASDI                Old-Age, Survivors and Disability Insurance
POMS                 Program Operations Manual System
SSA                  Social Security Administration
SSI                  Supplemental Security Income
U.S.C.               United States Code
                                                                     Appendix B

Excerpt from the National Research Council of the
National Academies Report, Improving the Social
Security Representative Payee Program: Serving
Beneficiaries and Minimizing Misuse and the Social
Security Administration’s Responses
In 2004, Congress required the Commissioner of the Social Security Administration
(SSA) to conduct a one-time survey to determine how payments to individual and
organizational representative payees were being managed and used on behalf of the
beneficiaries. To carry out this work, SSA requested a study by the National Research
Council of the National Academies (National Academies). SSA set four objectives for
the study: (1) assess the extent to which representative payees were not performing
their duties in accordance with SSA’s standards for representative payee conduct,
(2) learn whether the representative payment policies were practical and appropriate,
(3) identify the types of representative payees that had the highest risk of misuse of
benefits, and (4) find ways to reduce the risk of misuse of benefits and ways to better
protect beneficiaries. As mandated by Congress, the National Academies restricted the
national survey to individual payees serving fewer than 15 beneficiaries and non-fee-
for-service organizational payees serving fewer than 50 beneficiaries.

In July 2007, the National Academies issued its report, Improving the Social Security
Representative Payee Program: Serving Beneficiaries and Minimizing Misuse. In
addition to summarizing its survey results, the report contained conclusions and
recommendations intended to improve SSA’s Representative Payment Program. On
April 15, 2008, SSA issued its response to the National Academies report. In its
response, SSA addressed the 28 recommendations made for its Representative
Payment Program.

The following are excerpts of the National Academies’ conclusions and
recommendations and SSA’s responses.

   National Academies’ Conclusion
   The designation of “individual payee” is too broad a category. The designation
   mixes payees who serve a single or even a few beneficiaries with payees who
   operate group homes for up to 14 beneficiaries. Individual payees who are owners
   or administrators of group homes have an inherent conflict of interest. Payees of
   this type require special monitoring.




                                          B-1
      Recommendation 6.5
      SSA should develop policies that define and treat as an organizational payee an
      individual who serves multiple, unrelated beneficiaries and who is also the owner,
      administrator, or provider of a room-and-board facility.

      SSA Response:
      SSA stated that this recommendation appeared to be based on an assumption that
      SSA allows individual payees to serve no more than 14 beneficiaries at a time and
      that SSA would automatically provide more monitoring to these payees if they were
      defined as an organization. In fact, SSA selects individual payees serving fewer
      than 15 beneficiaries for random reviews as part of its payee monitoring program.
      SSA does not currently select organizational payees serving fewer than
      43 beneficiaries for random reviews. Therefore, treating these providers as
      organizational payees would not ensure increased monitoring and SSA did not
      believe that redefining them in this way was the best solution.

      However, SSA recognized the need to scrutinize this type of payee more closely and
      began such efforts. SSA also planned to expand its payee recruitment efforts to
      identify more suitable payees who are not creditors.

      Recommendation 6.6
      SSA should reevaluate its policies that permit creditors and administrators of
      facilities to serve as payees.

      SSA Response:
      SSA's current policy is that creditors are prohibited from serving as representative
      payees with certain statutorily-defined exceptions, such as facilities that are licensed
      or certified as a care facility under State law. SSA stated it believed these
      protections, which follow current law, were sufficient. 34

      However, SSA agreed that more needed to be done to investigate the issue of
      group home administrators as payees. In Fiscal Year 2008, SSA requested that the
      Office of the Inspector General audit representative payees for beneficiaries who
      reside in facilities that provide room and board. SSA planned to use this audit to
      identify any weaknesses in its policy. If the audit identifies a problem, SSA stated it
      would pursue policy changes.




34
     Social Security Act sections 205(j)(2)(C) and 1631(a)(2)(B)


                                                      B-2
National Academies’ Conclusion
The guardianship and fee-for-service aspects of the program conflict with the
congressional intent that individual payees not receive fees from Social Security
funds. Although SSA’s Program Operations Manual System (POMS) provides
policy guidance for allowing fees when there is court oversight, this broad allowance
of such a practice is not in the best interests of beneficiaries and conflicts with
legislative intent.

Some beneficiaries have SSA-appointed payees who are different from the people
who hold their power of attorney or serve as legal guardian, or conservator. This
causes potential conflicts, violations of SSA’s rules, inefficiencies and inaccuracy in
reporting, delays in payee selection, and duplication of effort.

There is a lack of communication between SSA and state courts with regard to
beneficiaries who might have both a guardian and a representative payee. This lack
of communication has led to misunderstandings as to the authority, or lack thereof,
for paying fees for representative payee services.

Recommendation 6.7
SSA should change POMS to state that when a beneficiary already has an
individual with power of attorney, a legal guardian or conservator, there is a
preference (with flexibility) for selecting that individual as the beneficiary’s
representative payee.

SSA Response:
SSA agreed that guardians should have preference, but does not automatically
assume the guardian is the best representative payee available. SSA’s regulations
and POMS instructions currently identify guardians as preferred representative
payees. However, to apply the same preference to conservators, SSA would have
to find that the two groups are identical. This approach will not produce a uniform
national policy because, in some States, conservators do not have the same legal
standing as guardians. Accordingly, POMS states that, in selecting a payee, SSA
employees must consider the fact that there is a conservator and determine whether
his or her appointment would be in the beneficiary’s best interest. SSA also does
not recognize the power-of-attorney for purposes of negotiating benefit payments.
This granting of authority does not diminish the rights of the beneficiary and usually
does not convey the right to manage a beneficiary's income.

However, SSA stated it would revise the provisions in POMS that explain and define
the special relationships between beneficiaries and their conservators and those
holding power-of-attorney to make sure that the policy is clear, and to ensure that
SSA employees who assess these types of payee applicants consider this
relationship when making a payee determination.




                                         B-3
Recommendation 6.8
SSA, in consultation with the States, should eliminate inconsistencies between State
and Federal practices regarding the calculation of payee fees and financial
oversight.

SSA Response:
Each State has its own laws governing guardianship duties and fees. Guardians
may perform very different duties than representative payees. It would be nearly
impossible to find one standard that would align SSA’s national program with the law
of 50 different States. Current SSA policy allows part of the beneficiary’s funds to
be used for customary guardianship or conservator costs, proceedings, and court–
ordered fees in most cases. In cases where it appears that the payee is deducting
excessive fees from a benefit payment, SSA reviews the case considering the
relevant State law guidelines and the court order, and works with the payee to try to
resolve the issue. SSA stated it would review its policies and update them as
necessary to ensure that the Agency is doing all it can to provide adequate
protection for the beneficiaries.




                                       B-4
                                                                      Appendix C

Scope and Methodology
Our review included the population of individual representative payees in the
contiguous 48 States serving 14 or fewer beneficiaries as of September 2007. To
accomplish our objective, we:

•   Reviewed applicable Federal laws and regulations and the Social Security
    Administration’s (SSA) policies and procedures for monitoring representative payees
    and their responsibilities for the beneficiaries in their care.

•   Obtained from SSA’s payment records and Representative Payee System a data
    extract of approximately 5.2 million individual representative payees who were
    serving 14 or fewer beneficiaries as of September 2007. From this file, we identified
    representative payees who (1) served between 4 and 14 beneficiaries, (2) served at
    least 3 beneficiaries who were not family members of the payees, and (3) managed
    over $800 in monthly benefit payments.

•   Selected a sample of 17 representative payees from 3 sampling frames of individual
    representative payees (see Appendix D for our Sampling Methodology).

•   Verified the identities of the representative payees being reviewed and the
    beneficiaries they served.

•   Interviewed 16 individual representative payees.

•   Determined whether the food, clothing, and shelter needs of the beneficiaries
    served by the individual representative payees were being met, based on interviews
    and observations.

    o Of the 16 individual representative payees selected for review, we determined
      whether 15 payees met the needs of the beneficiaries served. Based on
      conditions found, we determined a separate, detailed review was warranted for
      one payee. As a result, during this review, we did not determine whether the
      needs of the beneficiaries served by this payee were met. See Appendix D for
      our Sampling Methodology.

    o For the remaining 15 individual representative payees, 162 beneficiaries were
      served during the period January 1 to December 31, 2007. Of these, we
      determined whether 125 beneficiaries’ needs were met, based on personal
      observations and interviews.

    o Of the 162 beneficiaries served by the 15 payees, 37 were not observed or
      interviewed during our audit period. We did not observe or interview these


                                           C-1
       beneficiaries because the beneficiaries were incarcerated (two beneficiaries); no
       longer served by the payees and could not be contacted (eight beneficiaries); or
       had mental health issues (one beneficiary). In addition, 17 beneficiaries from our
       data file were deceased by the time of our site visits in 2008. Further, we limited
       the number of beneficiaries observed or interviewed when we did not identify any
       concerns with the payees based on the interviews we conducted. For example,
       for 1 payee serving 15 beneficiaries, we interviewed 10 beneficiaries who
       reported that their needs were being met. As a result of those interviews, we did
       not interview four beneficiaries being served by that payee. One beneficiary was
       deceased as reported above. In total, nine beneficiaries were not observed or
       interviewed because we did not identify any concerns with the payees based on
       interviews with other beneficiaries in the payees’ care.

•   Assessed the financial records of selected representative payees.

    o Of the 16 individual representative payees selected for review, we determined
      whether 15 payees misused benefit payments. Based on conditions found, we
      determined a separate, detailed review was warranted for one payee. As a
      result, during this review, we did not determine whether that payee misused
      benefit payments. See Appendix D for our Sampling Methodology.

    o Our review focused on benefit payments received by the 15 payees for the
      period January 1 to December 31, 2007.

We determined the data extracted from the Representative Payee System to be
sufficiently reliable for their intended use. Further, any data limitations are minor in the
context of this assignment, and the use of the data should not lead to an incorrect or
unintentional message.

The principal entities audited were the regional offices under the Deputy Commissioner
for Operations. We performed our review in Baltimore, Maryland, from August 2008 to
February 2009. In addition, we reviewed 16 representative payees in California,
Delaware, Florida, Georgia, Maryland, Massachusetts, Michigan, New Hampshire,
Pennsylvania and Texas. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




                                             C-2
                                                                                      Appendix D

Sampling Methodology
We obtained from the Social Security Administration’s (SSA) payment records and
Representative Payee System a list of approximately 5.2 million individual
representative payees who served 14 or fewer beneficiaries during the period January
through December 2007. From this file, we identified a population of
910 representative payees who had the following characteristics.

     Served at least three beneficiaries who were not family relatives.
     Managed more than $800 in monthly benefit payments.

From this population, we identified the following three groups of representative payees.

     119 payees with no indication they were convicted felons, served time in prison, or
      misused benefits; who were age 50 or older; and had less than $9,973 1 in wages in
      2005 (Sampling Frame A);
     780 payees with no indication they were convicted felons, served time in prison, or
      misused benefits with wages greater than $9,973 in 2005 (Sampling Frame B); and
     11 payees with an indication they were convicted felons, served time in prison, or
      misused benefits who were (a) over age 50 with wages less than $9,973 in 2005 or
      (b) any age with wages greater than $9,973 in 2005 (Sampling Frame C).

From the 3 sampling frames, we selected a total of 17 individual representative payees
for review. We selected seven individual representative payees managing the highest
amount of total benefit payments that exceeded the payees’ annual earnings from
Sampling Frame A. For Sampling Frame B, we selected eight payees managing the
highest amount of total benefit payments that exceeded the payees’ annual earnings.
Finally, from Sampling Frame C, we selected two payees who managed the highest
amount of total benefit payments that exceeded their annual earnings.

Of the 17 representative payees selected, 1 payee in the Boston Region was being
reviewed under SSA’s triennial monitoring program at the time of our review.
Therefore, we removed this payee from our audit. 2 As a result, our review initially
examined 16 individual representative payees.




1
 This amount represents the poverty threshold for 2005 for one individual household as reported by the
Department of Health and Human Services.
2
    After completing its review, SSA staff informed us no issues were found with this payee.


                                                      D-1
During our review, we determined a separate, detailed review of one payee was
warranted. This individual representative payee was located in the Philadelphia
Region. We found the payee also served as an organizational representative payee for
two group homes. Our limited review found the payee: (1) did not have adequate
internal controls for the receipt and disbursement of Social Security benefits,
(2) maintained a collective bank account that may not have met SSA’s requirements,
and (3) failed to notify SSA that a beneficiary in his care had been missing. A full
review of the representative payee’s activities for the period January 1, 2007 to
September 30, 2008 was initiated by our Philadelphia Audit Division. Therefore, for the
purposes of this review, we did not determine whether the beneficiaries’ needs were
being met, or whether the payee misused beneficiaries’ funds. The results of this
review will be reported separately as Organizational Representative Payee Serving as
an Individual Representative Payee in Philadelphia, Pennsylvania (A-03-09-29094).

As a result of excluding these 2 payees and the beneficiaries they served, we reviewed
a total of 15 individual representative payees serving 162 beneficiaries during the
period January 1 to December 31, 2007. We were able to interview and/or observe
125 of these beneficiaries to determine whether their needs were being met (see
Appendix C for our Scope and Methodology). Of the 125 beneficiaries, we question
whether the needs were met for 3 beneficiaries being served by 3 payees. Also, we
believe two payees charged nine beneficiaries fees for which they were not authorized.
Generally, nothing came to our attention that would lead us to believe the 15 individual
representative payees reviewed did not meet the needs of the beneficiaries being
served or misused Social Security benefits other than charging a fee for which the
payee was not authorized.




                                          D-2
                  Appendix E

Agency Comments
                                          SOCIAL SECURITY
MEMORANDUM


Date:      July 23, 2009                                                           Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn //s//
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Individual Representative Payees Serving
           Multiple Beneficiaries” (A-13-08-28089)—INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate the
           comprehensive work that the OIG auditing team did on this report. Our response to the report
           findings and recommendations is attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.

           Attachment




                                                          E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“INDIVIDUAL REPRESENTATIVE PAYEES SERVING MULTIPLE BENEFICIARIES”
(A-13-08-28089)

We have reviewed the draft report and agree with the report’s contents and findings. Our responses
to the specific recommendations are provided below.

Recommendation 1

Include steps to determine whether payees are operating group homes when we select individual
representative payees (Rep Payees) for review. If Rep Payees are operating group homes, take
additional steps to verify the needs of the beneficiaries are met and the expenses are reasonable
and supported.

Comment

We agree. We do not have the administrative data to determine if an individual Rep Payee is
operating a group home at the time we select a Rep Payee for review. However, we will examine
our procedures to determine if there is a way we can identify if a Rep Payee is operating a group
home. We will also identify any additional steps we can take to verify that the Rep Payee is
meeting the needs of the beneficiaries and that the expenses are reasonable and supported. We
expect to complete these actions by December 31, 2009.

Recommendation 2

Review the concerns reported to our staff regarding the specific payees OIG reviewed and take
appropriate action.

Comment

We agree. We will pursue the appropriate action for the specific Rep Payees.




[In addition to the information listed above, SSA provided technical comments which
have been addressed, where appropriate, in this report.]




                                               E-2
                                                                     Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Shirley E. Todd, Director, Evaluation Division
   Randy J. Townsley, Audit Manager

Acknowledgments

In addition to those named above:

   Linda Webester, Auditor-in-Charge

   Atlanta Audit Division
   Boston Audit Division
   Chicago Audit Division
   Dallas Audit Division
   Evaluation Division
   Philadelphia Audit Division
   San Francisco Audit Division

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-13-08-28089.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
